<html>
<title> - AMERICA'S WATER INFRASTRUCTURE NEEDS AND CHALLENGES</title>
<body><pre>[Senate Hearing 115-189]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-189

                 AMERICA'S WATER INFRASTRUCTURE NEEDS 
                             AND CHALLENGES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 10, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]















        Available via the World Wide Web: http://www.govinfo.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-873 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 10, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Robinson, Scott, Port Director, Muscogee City-County Port 
  Authority......................................................    10
    Prepared statement...........................................    13
Cassidy, Hon. Bill, U.S. Senator from the State of Louisiana.....    47
Ufner, Julie, Associate Legislative Director, National 
  Association of Counties........................................    48
    Prepared statement...........................................    50
    Responses to additional questions from Senator Sanders.......    64
Friedman, William, Chairman-Elect, American Association of Port 
  Authorities....................................................    66
    Prepared statement...........................................    68
Carter, Nicole T., Specialist, Natural Resources Policy, 
  Congressional Research Service.................................    73
    Prepared statement...........................................    75
    Responses to additional questions from Senator Barrasso......   100
    Response to an additional question from Senator Carper.......   102
Cochran, Steve, Associate Vice President for Coastal Protection, 
  Environmental Defense Fund, and Director, Restore the 
  Mississippi Delta Coalition....................................   105
    Prepared statement...........................................   108
    Response to an additional question from Senator Carper.......   137

                          ADDITIONAL MATERIAL

Letter to Senators Barrasso and Carper from the National Audubon 
  Society, January 10, 2018......................................   157
Letter to Lieutenant General Todd T. Semonite, Commanding General 
  and Chief of Engineers, U.S. Army Corps of Engineers, from the 
  State of Louisiana Coastal Protection and Restoration 
  Authority, October 18, 2017....................................   166
State of Louisiana Coastal Protection and Restoration Authority 
  White Paper: Environmental Review and Permitting Process 
  Challenges for Louisiana's Coastal Program.....................   191

 
          AMERICA'S WATER INFRASTRUCTURE NEEDS AND CHALLENGES

                              ----------                              


                      WEDNESDAY, JANUARY 10, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11 a.m. in room 
406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Rounds, Ernst, Sullivan, Whitehouse, 
Merkley, Gillibrand, Markey, and Van Hollen.
    Also present: Senator Cassidy.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we are holding a hearing to highlight the importance 
of passing a new Water Resource Development Act, or WRDA, 
during the 115th Congress. WRDA is the bill that authorizes 
funding for the Army Corps of Engineers' Civil Works Program. 
In order to write good legislation, we must consider the 
effectiveness of past WRDA provisions, the status of their 
implementation, as well as our country's future water 
infrastructure needs.
    The Senate Environment and Public Works Committee has 
jurisdiction over much of our nation's water infrastructure, 
including locks and dams, inland waterways, and ports. Prior 
Congresses have traditionally passed WRDAs on a bi-annual 
basis, going back to--Jim, what, 1986?
    Senator Inhofe. Yes.
    Senator Barrasso. Unlike other contentious issues, 
historically Republicans and Democrat members of the Senate 
Environment and Public Works Committee have been able to work 
together and pass WRDA legislation. To put it another way, this 
is legislation that moves. Regardless of party affiliation, we 
understand that these kinds of investments are far too 
important to our economy and security to fall victim to 
partisan politics.
    The members of this Committee represent a diverse group of 
communities with different needs. Our Committee has members 
that represent Baltimore, Maryland, and Anchorage, Alaska; Des 
Moines, Iowa, and Mobile, Alabama; Greybull, Wyoming; 
Wilmington, Delaware. The citizenry and millions of other 
Americans expect Congress to do its job by passing WRDA 
legislation to grow their economies and to keep them safe.
    When it comes to rural areas in particular, many 
communities depend on Corps projects for their existence. 
Congress must act to make it easier for the Corps to prevent 
flooding and to modernize levees. We must find better solutions 
to minimize ice jams, such as those that caused the Big Horn 
River to flood small, rural communities such as Worland and 
Greybull, Wyoming. Ice jams are a major public safety concern 
for towns which can't afford the out of control costs that come 
with severe flooding.
    In Wyoming and other western States, rural communities 
still face challenges associated with providing long term water 
supply and storage. Federal water storage facilities out west 
continue to lose existing space as a result of sediment build 
up. This is a major problem for western State economies, which 
have rapidly growing populations, significant ranching and 
farming communities, and enlarging energy industries. I believe 
the Corps and the Bureau of Reclamation need to work together 
to address this challenge.
    It is my hope that this Committee will work forward to find 
solutions in a bipartisan way to meet our country's water 
infrastructure needs for urban areas as well. Our nation's 
ports on our coasts and inland waterways are just as vital to 
the country's economic well being. Goods, commodities, and raw 
materials from the heartland of America go through these ports 
for export. In Wyoming, our soda ash--the key component of 
making glass--gets shipped out of the Port of Portland, Oregon. 
We all have a vested interest in maintaining these ports, which 
are vital arteries of commerce.
    So I urge my colleagues to work with me in a bipartisan way 
to find these solutions to the enactment of the WRDA bill in 
2018.
    With that, I will now turn to the Ranking Member of the 
Committee for his comments.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman. Thanks very much 
for pulling this together.
    Thanks to all of our witnesses for taking time to share 
with us. This is a really important issue, and encouragingly, 
an issue that we might actually be able to work on together and 
get something done. In past years Senator Inhofe, working with 
Senator Barbara Boxer, they have been good at showing us how 
this is done. So hopefully, we won't screw up a good thing. 
With your help, that will be the case.
    I want to say that this is an extremely important 
authorization that we do about every 2 years. The most recent 
authorization expires this December. As we all know, coastal 
issues are extremely important to Delaware. But as the Chairman 
just said--in what I thought was a very good statement--you 
don't have to be on a coast; you don't have to be in 
Massachusetts; you don't have to be in Rhode Island or Delaware 
in order to have a real strong interest in this issue. It 
affects us all every day.
    Delaware's economic reliance on the Corps' work is not 
unique. Ninety-nine percent of the U.S. overseas trade volume--
over 99 percent--moves through coastal channels that the Corps 
maintains. Additionally, the Corps' inland waterways and locks 
form a freight network. Think of it, if you will, as a water 
highway, connecting waterways and ports and providing direct 
access to international markets. They also serve as critical 
infrastructure for the U.S. military.
    In addition to navigation, the Corps of Engineers also 
works to reduce the risk to human safety and property damage 
from flooding. Flooding alone currently costs the United States 
billions of dollars annually.
    As the 2017 hurricane system illustrated, our nation needs 
to be a resilient one that is ready for the next storm or flood 
or drought event. Because they are coming. In fact, just this 
week, we were told by NOAA, the National Oceanic and 
Atmospheric Administration, they announced that in 2017, total 
costs for extreme weather and climate events exceeded $300 
billion. If that seems like a lot of money, it is. That is a 
new annual record in the U.S. So it is clearly not a matter of 
if the next extreme weather event is coming; it is just a 
matter of when.
    Together, the Corps' navigation and flood risk management 
activities account for more than 70 percent of the agency's 
annual civil works appropriation. But the Corps has or shares 
jurisdiction over many other critical civil works programs as 
well, including environmental stewardship, hydropower, 
recreation, emergency management, and water supply.
    Unfortunately, in the mid-1980s, Federal funding for new 
project construction and major rehabilitation began to steadily 
decline. With this trend, the Corps' actions have shifted to 
operations, to maintenance, to rehabilitation of existing 
infrastructure, and a backlog of deferred maintenance has 
continued to grow ever since.
    As a result, much of the Corps' infrastructure is now 
exceeding its useful lifespan.
    We have a couple of graphics here. I am looking here at one 
Christine is holding up for us. It was provided by our friends 
from the American Association of Port Authorities; a busy 
chart, but a good one, nonetheless. Everybody should have it at 
your desk, a copy of this. About $66 billion in investment in 
port related infrastructure is needed over the next decade to 
ensure U.S. job creation and economic growth; over $66 billion 
in investment in port related infrastructure is needed over the 
next 10 years to ensure that the U.S. job creation and economic 
growth continues.
    We have another graphic also provided by the American 
Association of Port Authorities. As this graphic shows, 
investment in our freight network, which is an interconnected 
network of ships, barges, trucks, and trains, is essential to 
the safe and efficient movement of goods, both into and out of 
the United States. This freight network serves as the backbone 
of our economy; it is not just ships; it is not just barges; it 
is not just trains; it is not just trucks; it is all of the 
above and more.
    With respect to flood damage risk, the American Association 
of Civil Engineers Infrastructure Report Card tells us an 
unsettling story, with dams and levees and inland waterways 
grading out at a D, receiving a grade of D. Deplorable. 
Representing an overall cumulative investment backlog of nearly 
$140 billion and an authorized but unconstructed portfolio of 
another $60 billion.
    The Corps faces a sizable math problem as they try to 
service that roughly $200 billion--if you have the $140 billion 
and add that to the $60 billion requirement, and more. Match 
that up, if you will, with an annual budget that hovers around 
$4.6 billion. The math just doesn't work, does it?
    Clearly, we have a lot of important work to do. We need to 
work in a bipartisan fashion, if we are to really address these 
concerns and build consensus on a path forward, in a smart, 
cost efficient way, leveraging both green as well as gray 
infrastructure solutions.
    Again, Mr. Chairman, thank you for holding this important 
hearing. We all look forward to hearing from our witnesses.
    I want to submit for the record these letters of acclaim 
for the newest member of our Committee.
    [Laughter.]
    Senator Carper. I just want to say, Chris, welcome aboard.
    Senator Van Hollen. [Remarks made off microphone].
    Senator Carper. Senator Harris came up to me yesterday at 
the Caucus lunch and she said, ``I'm moving off your 
Committee.'' I said, ``I know, we are sorry to hear that.'' She 
said, ``It's not because I'm not interested in the issues, I'm 
keenly interested in the issues and very much want to be part 
of your extended family.'' I thought we could work that out.
    But for an attorney general, somebody that is going to be 
on the Judiciary Committee, if you can get there, I think it is 
a good thing for her. She will still be part of our team.
    Thanks very much.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Barrasso. We would like to welcome Senator Van 
Hollen to the Committee. We now, with you and Senator Cardin, 
and since my mom grew up in Maryland working in Dundalk, 
Maryland, a summer job, I can tell you with two of you from 
Maryland and this history, that now we can make sure that the 
Chesapeake Bay is fully protected. I know that is an issue.
    Senator Van Hollen. Mr. Chairman, I will say no more.
    [Laughter.]
    Senator Barrasso. Welcome to the Committee.
    We are now going to hear from our witnesses. We are going 
to start with an introduction in a second from Senator Inhofe.
    We have Mr. Scott Robinson; we have Ms. Julie Ufner, who is 
the Associate Legislative Director of the National Association 
of Counties. We have Mr. William Friedman, who is the Chairman-
Elect of the American Association of Port Authorities; Ms. 
Nicole Carter, the Natural Resources Policy Specialist for the 
Congressional Research Service; and Mr. Steven Cochran, who is 
the Associate Vice President for Coastal Protection, Restore 
the Mississippi Delta Coalition.
    And I believe Senator Cassidy is going to be here in a few 
moments to introduce Mr. Cochran.
    But if I could start by asking Senator Inhofe to please 
introduce our guest.
    Senator Inhofe. Thank you, Mr. Chairman. I appreciate that, 
and also having the presence of Scott Robinson here. He has 
spent a lot of time in this business, and we have become good 
friends.
    I have to say one thing, though, building a little bit on 
what Senator Carper just said. It is not just the coastal 
States that we are interested in. We are, in Oklahoma, 
America's most inland warm water port. Now, the problem is, 
nobody knows it. And I remember back when I was in the State 
Senate, many years ago--in fact, it was back in the 1970s--we 
conceived something that we thought, we are going to tell the 
whole world that we are navigable in Oklahoma.
    So the World War II submarine veterans came in, we worked 
out a deal. They said, if you can procure a submarine, we have 
figured out a way to get it all the way up from Texas to 
Oklahoma. Now, we are talking about a submarine, the USS 
Batfish, it was the length of a football field, a huge thing. 
And all my adversaries were saying, we are going to sink Inhofe 
with his submarine.
    Nonetheless, we got it up there, and there it is, in your 
port, Port of Muscogee, a 300 foot submarine that shows the 
world that we are in fact an inland port.
    So Scott, it is nice to have you here. You have a 
tremendous background there. You have been at the Port of 
Muscogee for 28 years now, with more than 1,000 acres of land 
within the jurisdiction of the Port that is poised to continue 
its growth and provide several transportation options for 
Oklahoma industries.
    Scott has been active in the waterway communities, serving 
on a variety of related boards and commissions, including the 
National Waterways Conference, the Marine Transportation 
System, National Advisory Council, Arkansas-Oklahoma Port 
Operators Association. So it is great to have you here. You 
bring a lot of knowledge to this meeting, and I appreciate it.
    Mr. Robinson. Thank you very much, Senator Inhofe, for that 
introduction. It is good to see you. I could spend my 5 minutes 
talking about stories about you, but I won't do that.
    Senator Barrasso. We will extend your opportunity.
    [Laughter.]
    Senator Barrasso. Don't feel limited to 5 minutes if you 
are going to talk about him.
    But I do want to remind all the witnesses that your full 
testimony will be made part of the official hearing records, 
and except for Mr. Robinson, I would ask you please to keep 
your statement to 5 minutes, so that we will have time for 
questions.
    Mr. Robinson.

   STATEMENT OF SCOTT ROBINSON, PORT DIRECTOR, MUSCOGEE CITY-
                     COUNTY PORT AUTHORITY

    Mr. Robinson. Chairman Barrasso, Ranking Member Carper, 
members of the Committee, it is an honor and a privilege to 
testify before you here today about America's infrastructure 
needs and the importance of WRDA 2018. Thank you for this 
opportunity to contribute my thoughts.
    I am, as Senator Inhofe said, Scott Robinson, Port 
Director, Port of Muscogee. I have been there since 1990. The 
Port of Muscogee is one of two public ports in Oklahoma and one 
of five in Oklahoma and Arkansas.
    I commend the Committee for the work it has accomplished 
through 2014 and 2016 WRDA legislation. As I hope to illustrate 
further in my testimony today, the absence of regularly enacted 
WRDA legislation during the period 2001 through 2013 caused 
serious harm to an important infrastructure development project 
along the McClellan-Kerr Arkansas River Navigation System, 
which in the interest of time I will refer as NKARNS. The 
NKARNS is a 445 mile, multi-purpose waterway that runs through 
Arkansas and Oklahoma. Completed in 1970 at a cost of $1.2 
billion, it was the largest Federal investment ever made in a 
civil works project, connecting the two States--Oklahoma and 
Arkansas--with domestic river ports and terminals along the 
inland waterways of the United States and with ports all over 
the world via the Port of New Orleans and the Gulf of Mexico.
    In 2015 there was a regional impact study for the NKARNS 
conducted and published, documenting the impacts, $8.5 billion 
in sales, 55,000 jobs, $289 million in taxes to the national 
economy. You will find a copy of that in Attachment A to my 
testimony. At Attachment D you will find a letter signed by the 
President of the Arkansas-Oklahoma Port Operators Association, 
endorsing its priorities for the NKARNS. You will find my 
briefing that we made to the Congress and to stakeholders and 
congressional staffers in Attachments B and C.
    I would like to take a few minutes to talk about three 
infrastructure priorities for the NKARNS, and in doing so, 
hopefully give this Committee a glimpse of waterway 
infrastructure needs of the nation. No. 1 priority was 
modification of an existing structure, the Molenda structure. 
Near the confluence of the NKARNS and the Mississippi River, 
the Arkansas River and the White River are trying to come 
together. Every time it floods, the Corps has to spend money 
trying to fix the problem. Failure is imminent, and a solution 
is imperative.
    The prominent solution to the problem will soon come out of 
a Corps study now in progress, that is cost shared by the State 
of Arkansas. Once the study is completed, and the chief's 
recommendation is issued, the Molenda structure will face new 
start and cost share hurdles. Until then, the NKARNS is at risk 
of failure.
    No. 2, backlog of critical maintenance. There is a serious 
and growing backlog of deferred maintenance on the NKARNS, 
$143 million of which is deemed critical by the Corps of 
Engineers. The Corps defines critical maintenance as having a 
50 percent chance of failure within 5 years.
    In March 2017 there were 42 such critical maintenance items 
on the NKARNS. More alarming than that, the critical backlog is 
growing rapidly. In his testimony to this Committee in 2016, 
Tulsa Port of Catoosa's Director Bob Porter expressed concern 
that the critical backlog had reached $70 million. So that is 
twice as much today.
    The problem on the NKARNS is no different than the problem 
faced all across the nation. In order to spread too little 
funding too far, we are fixing critically important 
infrastructure as close to failure as possible, and in some 
cases after it fails and on an emergency basis. This is not an 
acceptable asset management strategy. It is a prescription for 
failure.
    No. 3 was the 12 foot channel and the vacuum created by the 
absence of regularly enacted WRDA legislation before 2014 and 
2016 WRDA. Congress, in Section 136 of the Energy and Water 
Development Appropriations Act of 2004, authorized the 
deepening of the NKARNS from 9 to 12 feet. In the 2005 Energy 
and Water Development Appropriations Act, $7 million was 
appropriated for the channel deepening; $5.5 million was used 
in 2006 for design and construction activities, which reduced 
the $172 million estimated project cost by a like amount. In 
2009 the Corps expressed a 
$49 million capability, but it never ended up in the 
President's budget.
    In Oklahoma we call this the WEWOKA switch. I don't have 
time to explain. Suffice to say, being lost in the WEWOKA 
switch is not good. The Committee can rescue the 12 foot 
channel and resolve the new start dilemma by including 
clarification language in WRDA 2018 as follows: Congress finds 
that the initial funding was provided and construction started 
on a 12 foot navigation channel of the McClellan-Kerr Arkansas 
River Navigation System, as directed in Section 136 of the 
Energy and Water Development Appropriations Act, thereby 
meeting the new start requirements.
    In conclusion, according to the Institute of Water 
Resources, from 2010 through 2012, the Civil Works Program of 
the United States Army Corps of Engineers provided an annual 
estimated national economic development net benefit of $87 
billion and stimulated 
$27 billion in returns to the U.S. Treasury. Sixteen to one 
returns in terms of economic benefits and five to one return in 
revenue to the Treasury. Waterways investment is a wise 
investment.
    If there is finally going to be a comprehensive 
infrastructure reinvestment plan, then my plea on behalf of 
NKARNS stakeholders is that it not be just for roads and 
bridges, but for waterways, too. Not just for deep draft 
coastal ports and harbors, but inland waterways as well, 
together with modern, multi-modal connections, truck and rail, 
for efficient, competitive movement of freight.
    To the extent waterway projects are favorably considered in 
such an infrastructure reinvestment plan and require private 
investment as leverage, then the Water Infrastructure Finance 
and Innovation Act Program, created in WRDA 2014, may be just 
the tool necessary to track such investment in projects for 
which the Inland Waterway Trust Fund Revenues are not 
sufficient to share.
    Thank you again for the opportunity to testify. I would be 
happy to answer any questions you may have.
    I realize I have gone over my time. If you want me to tell 
some of those stories, I will.
    [Laughter.]
    [The prepared statement of Mr. Robinson follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
    
    Senator Barrasso. Thank you very much, Mr. Robinson.
    Before moving to Ms. Ufner, I would like to invite Senator 
Cassidy, if this is a convenient time for you to introduce your 
guest here today.

                STATEMENT OF HON. BILL CASSIDY, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Cassidy. Steve Cochran is sitting behind me; I 
gather he is on the next panel.
    Thank you, Mr. Chairman, for allowing me to introduce him.
    Chairman Barrasso, Ranking Member Carper and other members, 
thank you again for allowing me to introduce Steve Cochran, a 
dedicated Louisiana public servant. Steve has worked for many 
years in pursuit of a long term solution that will restore and 
protect Louisiana's incredibly fragile coastal ecosystem. He 
has worked with former Louisiana Congressmen then-Governor 
Buddy Roemer, the Lake Pontchartrain Basin Foundation, the 
Mississippi River Delta Coalition and the Environmental Defense 
Fund, which makes him uniquely qualified to speak to the need 
of an integrated strategy that utilizes innovative approaches 
to restore wetlands and support coastal ecosystems.
    Now, coastal Louisiana is losing land as we speak. As we 
speak, there is something on a Google map that looks green that 
if you really had an updated Google map would no longer look 
green, it would now look like open water. That is the crisis we 
have. It poses a serious threat to our State, to our 
communities, and upon our State's and nation's economy. It has 
required our State to develop, in a bipartisan fashion, a 
comprehensive plan referred to as the Louisiana Comprehensive 
Master Plan for Sustainable Coasts, a $50 billion over 50 years 
plan to restore Louisiana's coast, based on sound scientific 
and modeling principles required to be updated every 5 years.
    While Louisiana is prepared to implement projects detailed 
in the master plan, the problem is the environmental review and 
permitting processes challenges that threaten to stop these 
projects from going forward. Currently, the average timeframe 
for the government to approve a Federal project is close to 5 
years. Now, remember I said we are losing coastline like this 
minute? We get 5 years to permit something, and by that time, 
there has been dramatic change.
    This timeframe is unacceptable given the magnitude of the 
threat to Louisiana's coastline. Revising the permitting 
approach for the Corps and for other agencies, particularly 
where multiple Federal agencies are involved, is critical, so 
that regulations focus on finding ways to expedite 
consideration of long term ecosystem projects that restore 
wetlands and protect communities, rather than maintain the 
current short term regulatory focus that again only seems to 
impede these important projects from moving forward.
    The Mid-Barataria Bay Sediment Diversion, a WRDA authorized 
project south of New Orleans, offers a textbook example of the 
need to increase transparency and improve coordination between 
Federal agencies. The Diversion will take freshwater and 
sediment from the Mississippi into threatened wetlands on the 
western side of the river to be able to sustain new and 
existing wetlands.
    Now, the existing regulatory hurdles in multiple Federal 
agencies will likely lead to multi-year permitting delays for 
this and other large ecosystem restoration projects, resulting 
in the loss of more Louisiana coast.
    I look forward to working with this Committee to restore 
the Mississippi River Delta Coalition, the Corps of Engineers, 
and other interested parties, to update and modernize the 
Federal permitting process in the next WRDA reauthorization 
bill, so that we are better able to sustain coastal 
environments and communities in both Louisiana and across the 
nation.
    I thank you for the opportunity to testify this morning to 
introduce Mr. Cochran. Thank you.
    Senator Barrasso. Thank you very much, Senator Cassidy. I 
know you have other pressing matters. You are welcome to stay 
as long as you like. I appreciate your coming here today to 
introduce Mr. Cochran.
    Now I would like to call on Ms. Julie Ufner, who is the 
Associate Legislative Director for the National Association of 
Counties.
    Welcome.

   STATEMENT OF JULIE UFNER, ASSOCIATE LEGISLATIVE DIRECTOR, 
                NATIONAL ASSOCIATION OF COUNTIES

    Ms. Ufner. Good morning, Chairman Barrasso, Ranking Member 
Carper and members of the Committee.
    I am honored to testify before you today on water 
infrastructure needs and challenges. My name is Julie Ufner. I 
am from the National Association of Counties. We represent the 
nation's 3,069 counties.
    I have been asked to share with you our western counties' 
experiences with the Water Resources Development Act, how we 
use WRDA to work with the Army Corps to keep our communities 
safe. Consider this: counties own 45 percent of the nation's 
road miles and close to 40 percent of the nation's bridges, 
along with harbors, ports, inland waterways, levees, dams. 
These play vital roles to keep our economy safe.
    This especially plays out in the west, where water issues 
can be more complex. The Federal Government owns vast tracts of 
land within counties, which prevents counties from raising 
property taxes. Yet we are still responsible for law 
enforcement and emergency services on these lands, while also 
protecting our residents on non-Federal lands.
    The Federal Government owns 97 percent of the land in the 
city-borough of Juneau, Alaska, which leaves the borough of 
33,000 with only 3 percent of usable land. They are highly 
dependent on tourism, mining, and fishing to drive their $2.6 
billion economy. A large part of their success comes from WRDA 
funding that helps them maintain those navigation channels 
leading to their port.
    In Park County, Wyoming, a community of 30,000 residents 
and comprised of 81 percent public lands, in the last year has 
had mountain flooding and ice jams. This has resulted in 
flooding which has destroyed county bridges and roads, many of 
which lead to the gateways of the national parks. The county is 
now working with the Army Corps and FEMA to replace these 
structures.
    But WRDA could do more. Counties have aging infrastructure 
in their communities, some of which is close to 100 years old. 
We have a limited pot of funds to pay for this. One example, 
Tuolumne County, California, where the local economy of 54,000 
is almost solely dependent on an old wooden flume and ditch 
system for its water, which was built in the 1850s. This flume 
is located in a heavily overgrown national forest, which is 
vulnerable to wildfires. If it were destroyed, the community 
would be without water for months. It would take over a year to 
rebuild, devastating the local economy.
    Additionally, some Federal regulations slow down 
construction and significantly increase costs for public safety 
projects. Orange County, California, maintains several hundred 
miles of flood control channels that are intended to protect 
homes, businesses, and roads from flooding. But for maintenance 
activity in these channels, such as cleaning out debris, the 
county is required to obtain Section 404 permits from the Army 
Corps of Engineers.
    It took the county approximately 3 years to obtain the 
permit, which mandated them to clear 13 acres of vegetation and 
required 20 acres of mitigation at a cost of over $3.5 million 
for a permit that is only valid for 5 years. This is not an 
isolated example.
    Additionally, our counties note that there are challenges 
within the existing Army Corps structure, which includes 
cumbersome and complex requirements, the length of time that it 
takes to complete water studies, limited funding, and competing 
agency requirements. Congress has a unique opportunity to 
address this issue. We are encouraged by the Senate's stated 
commitment to complete a WRDA bill this year.
    We look forward to working with you to identify ways in 
which we can address challenges within the Section 404 
permitting program for public safety infrastructure. We would 
also like to address funding needs, because without WRDA and 
the Army Corps, our counties would not have been able to 
accomplish the multitude of projects that we have been able to 
carry out in the past several decades.
    Finally, we encourage Congress to provide a framework of 
meaningful consultation between the Army Corps of Engineers and 
State and local government partners on pending rules and 
policies that directly impact those entities. We believe that 
this will solve many of the conflicts that now exist between 
the Army Corps and its intergovernmental partners. Simply put, 
WRDA is a project that works. Together, we can work to make the 
partnership stronger.
    On behalf of NACo, thank you for the opportunity to 
testify. I would be happy to answer any questions.
    [The prepared statement of Ms. Ufner follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
     
    Senator Barrasso. Thank you very much, Ms. Ufner. We 
appreciate your being here today.
    I would like to turn now to Mr. William Friedman, who is 
the Chairman-Elect of the American Association of Port 
Authorities.
    Thanks so much for joining us today.

    STATEMENT OF WILLIAM FRIEDMAN, CHAIRMAN-ELECT, AMERICAN 
                ASSOCIATION OF PORT AUTHORITIES

    Mr. Friedman. Thank you. Good morning, Chairman Barrasso, 
Ranking Member Carper, and members of the Committee. I want to 
thank you for the opportunity to provide remarks to the 
Environment and Public Works Committee on America's water 
infrastructure needs and challenges.
    I am William Friedman, President and Chief Executive 
Officer of the Cleveland Cuyahoga County Port Authority, which 
we usually shorten to the Port of Cleveland, because that full 
name is a mouthful. The Port of Cleveland anchors northeast 
Ohio's maritime sector, which is a major economic contributor 
to our State and local economy. Maritime traffic in excess of 
13 million tons annually through Cleveland harbor drives $3.5 
billion in annual economic activity in our community and 
supports 20,000 jobs in our community as well.
    I am also speaking on behalf of the American Association of 
Port Authorities, AAPA, as the Chairman-Elect of its 
Legislative Policy Committee that sets policy for our members. 
My remarks today will provide illustrative examples of water 
infrastructure needs faced by public ports and recommendations 
for WRDA legislation to improve the Corps of Engineers 
navigation program.
    AAPA members appreciate that Congress understands the 
importance of our seaports' role in the U.S. economy. 
Constructing and maintaining the nation's 21st century maritime 
infrastructure is essential to the nation's economic future. 
Public ports and their private sector partners are committed to 
this challenge, with plans to invest upwards of $155 billion 
between 2016 and 2020, in port related facilities.
    It is imperative that related infrastructure be a part of 
any broad infrastructure investment legislation the Committee 
develops. AAPA has identified $66 billion in potential 
waterside and landside investments over the next decade that 
will help assure the benefits from an anticipated $155 billion 
in port related capital infrastructure investments.
    The waterside amount consists of full use of Harbor 
Maintenance Trust Fund revenues over the 10 year period, use of 
the $9 billion Harbor Maintenance Trust Fund surplus to restore 
Federal navigation channels, and $6.2 billion for the Federal 
share of cost share channel improvements authorized in WRDA 
2014 and WIIN 2016, and projects that are currently being 
studied that will get authorized in the coming years.
    AAPA believes a significant Federal investment would grow 
the U.S. economy, increase family wage supporting jobs, enhance 
America's international competitiveness, and generate 
additional tax revenues. I have provided two infographics which 
Senator Carper had pointed out at the outset of the hearing. 
Those are both available to you. They look like this. The first 
provides details on the $66 billion needs, and the second 
infographic highlights the types of port related projects that 
can benefit from infrastructure investment legislation.
    Turning to WRDA, it is vitally important that this 
legislation be passed on a 2 year cycle, as it enables both 
major and smaller policy changes and improvements to be made 
and navigation projects to be authorized. I look forward to the 
next WRDA legislation to continue making these improvements in 
the legislation.
    I would point out AAPA's three key priority issues for the 
next WRDA as follows. First, WRDA 2014 was landmark legislation 
establishing a path to full use of the Harbor Maintenance tax 
revenues for its intended purposes, which is navigation channel 
maintenance. WRDA 2016 adjusted the annual funding target 
approach so that progress is made toward full HMT use each 
year. We are grateful the annual funding targets are currently 
being met by Congress through the appropriations process.
    However, we maintain that the ultimate solution is for full 
HMT revenues to be provided directly to the Corps of Engineers. 
We appreciate the bills that have been proposed to address this 
issue. My fellow AAPA members and I are working on an approach 
that accomplishes full HMT revenue use that includes an 
industry supported spending formula.
    No. 2, authorize and proceed to construct navigation 
project improvements recommended in Chief of Engineers' 
reports. This includes a project authorization change report 
for the Soo Locks major rehabilitation on the Great Lakes.
    No. 3, past WRDAs include streamlining of the Corps of 
Engineers study process for navigation channel improvements. 
That has worked well. We think that additional streamlining 
improvements can be made in this upcoming WRDA. AAPA will 
submit a list of specific streamlining improvements to the 
Committee soon.
    I commend the Committee leadership for recognizing the 
nexus between water resources development and economic 
prosperity. I urge you to develop and pass infrastructure 
investment in WRDA legislation at the earliest possible time. I 
would be happy to address any questions you might have for me.
    Thank you very much.
    [The prepared statement of Mr. Friedman follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

     Senator Barrasso. Thank you very much for your testimony, 
Mr. Friedman. We look forward to the questions in a little bit.
    I would like to turn first to Ms. Nicole Carter, who is a 
Natural Resources Policy Specialist for the Congressional 
Research Service.
    Thanks for joining us.

 STATEMENT OF NICOLE T. CARTER, SPECIALIST, NATURAL RESOURCES 
             POLICY, CONGRESSIONAL RESEARCH SERVICE

    Ms. Carter. Chairman Barrasso, Ranking Member Carper, and 
members of the committee, my name is Nicole Carter. I am a 
specialist at the Congressional Research Service in Natural 
Resources Policy. Thank you for inviting CRS to testify.
    The Committee requested that CRS focus on the legislative 
process for a Water Resources Development Act, WRDA, and 
related issues in 2018. I will start with a WRDA primer, then 
discuss executive branch reports relevant to WRDA 
deliberations, and end with some broader context for water 
resource authorization and infrastructure deliberations in 
2018.
    Congress is often involved at the project level when it 
comes to the U.S. Army Corps of Engineers. Congress authorizes 
the Corps to perform specific projects to improve navigation, 
reduce flood damage, and restore aquatic ecosystems. Congress 
typically authorizes new Corps studies and projects in statute 
in an omnibus Corps authorization bill, a WRDA bill, prior to 
providing Federal funding.
    Most authorities for previous WRDAs do not require 
reauthorization. A small number of time limited authorities and 
authorizations of appropriations end in 2018 and 2019. 
Authorization, however, does not guarantee Federal 
appropriations for a project.
    Although Congress does not appropriate funds in a WRDA, 
WRDA provisions may affect the use of appropriations. For 
example, WRDA provisions have provided targets for navigation 
trust funds, and have established the non-Federal/Federal split 
of project costs. The timing of enactment of WRDAs has varied. 
WRDA 1986 marked the end of a decade long stalemate between 
Congress and the executive branch regarding cost sharing and 
user fees.
    Since WRDA 1986 Congress has aimed to avoid long delays 
between the planning and the execution of projects. Biennial 
enactment of WRDA was roughly followed from 1986 until the 
early 2000s. Since then enactment has been less regular. An 
issue that complicated enactment in the 111th and 112th 
Congresses was how to develop a bill without congressionally 
directed, geographically specific activities, commonly referred 
to as earmarks. In response, the 113th Congress developed new 
reporting processes that I will discuss later.
    The 113th Congress enacted the Water Resources Reform and 
Development Act of 2014. It expanded non-Federal opportunities 
to lead Corps studies and projects and authorized 34 new 
construction projects. The 114th Congress enacted the next WRDA 
in December 2016. It authorized 30 new Corps construction 
projects, as well as dozens of studies. WRDA 2016 was a title 
of a broader water authorization bill that covered a range of 
water infrastructure issues, including programs and activities 
of the Bureau of Reclamation and EPA. All 64 new Corps 
construction projects authorized in WRDA 2014 and WRDA 2016 had 
a completed report by the Agency's Chief of Engineers.
    Since WRDA 2016 five Chief's reports that recommend 
congressional authorization of new projects have been 
completed--two projects in Texas, two in Florida, and one in 
New York. An additional 12 to 18 Chief's reports may be 
completed by the end of 2018. Congress also uses WRDAs to 
authorize significant changes to previously authorized 
projects. The Corps is completing a report recommending an 
increase in the authorization of appropriations for the 
Savannah Harbor Expansion Project.
    WRDA 2014 created a new process and requirement for the 
Secretary of the Army to annually collect and report on 
publicly submitted proposals for Corps studies and projects. 
The most recent annual report was delivered in March 2017. It 
includes 13 public proposals for new feasibility studies and 
modifications to existing projects. The deadline for the next 
annual report to Congress is February 2018.
    Many topics may shape deliberations on water resource 
infrastructure in 2018, such as the use of two navigation trust 
funds and the safety and operation of Corps dams and levees. 
Three broad topics of relevance to deliberation in 2018 are 
infrastructure initiatives. How may a broad infrastructure 
initiative relate to authorized Corps projects and reinvestment 
in aging federally owned infrastructure?
    Two, non-Federal expectations and partnerships; what will 
the Federal Government expect of non-Federal project sponsors 
in coming years? And what can non-Federal entities expect from 
the Federal Government in terms of partnering and financing of 
projects?
    Three, floods. Recent disasters, including the 2017 
hurricanes, have raised numerous questions, like how effective 
and efficient are current processes for identifying priority 
Federal investments to reduce the nation's flood risk?
    Thank you. This concludes my statement.
    [The prepared statement of Ms. Carter follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

        
    Senator Barrasso. Thank you very much, Ms. Carter. We 
appreciate your testimony. There may be some questions in a 
little bit.
    I would like to now welcome Mr. Steven Cochran, the 
Associate Vice President for Coastal Protection, Restore the 
Mississippi Delta Coalition.
    Thanks so much for joining us today.

   STATEMENT OF STEVE COCHRAN, ASSOCIATE VICE PRESIDENT FOR 
 COASTAL PROTECTION, ENVIRONMENTAL DEFENSE FUND, AND DIRECTOR, 
            RESTORE THE MISSISSIPPI DELTA COALITION

    Mr. Cochran. Thank you, Senator Barrasso, Senator Carper, 
and members of the Committee. I also want to thank Senator 
Cassidy for coming here this morning. I don't know if you 
noticed it, but he has a bad cold, so I particularly appreciate 
him being willing to come out here today.
    I want to thank Senator Kennedy from our State as well, 
both of them do diligent work on behalf of our State's 
vulnerable coastal communities.
    For the record I am Steve Cochran, Associate Vice President 
with the Environmental Defense Fund, and the director of a 
coalition called Restore the Mississippi River Delta. We are a 
coalition of three national organizations--the Environmental 
Defense Fund, the National Audubon Society, and the National 
Wildlife Federation--and two Louisiana based organizations, the 
Coalition to Restore Coastal Louisiana and the Lake 
Pontchartrain Basin Foundation.
    For over 10 years our coalition has worked together on 
landscape scale restoration across the Louisiana coast. In 
addition to my own written statement, which is submitted for 
the record, Coalition members National Wildlife Federation and 
Audubon have also submitted written testimony. I hope the 
Committee can give them due consideration as well.
    This morning I would like to tell you a little about the 
challenges in my home State of Louisiana, where, to be blunt, 
as Senator Cassidy said, we have a coastal crisis. As Congress 
begins to look at WRDA, I want to focus on possible solutions 
from what we believe are lessons from the front.
    The Louisiana coast, since the 1930s, has lost about 1,900 
square miles. As Senator Carper knows, that loss is roughly the 
size of the State of Delaware. Without action, we are projected 
to lose up to another 4,000 square miles within the next 50 
years.
    These losses have dramatic implications for millions of 
people and their communities along the coast; for nationally 
significant energy and refining infrastructure, for globally 
significant port facilities, and for world class habitat that 
supports countless wildlife species, including a huge diversity 
of commercial and recreational fisheries.
    While the crisis along Louisiana's coast is unique, its 
challenges are reflected across the country. As the Committee 
knows, 2017--Senator Carper pointed this out earlier--set the 
record for weather related damages across the country, the 
majority of which were from hurricanes and floods. As you would 
imagine, we spend a lot of time in the Delta thinking about 
solutions. From that perspective, here are some general 
concepts that we would recommend as you consider WRDA.
    First, coastlines are complex systems, and each area 
requires its own carefully considered measures to adapt to 
changing conditions.
    Second, no engineered or natural structure is 100 percent 
effective against all storms, but structural solutions can be 
rendered far more effective in concert with restored natural 
features and processes.
    Third, in many cases our nation's wetlands and floodplains 
are themselves critical infrastructure that needs to be 
restored so that, in addition to their ecological benefits, 
they can be used specifically to reduce the impacts and costs 
of floods and storms.
    In Louisiana, the State and its partners have used these 
concepts in constructing their own approach. Louisiana's Master 
Plan for a Sustainable Coast is a document which guides 
comprehensive State planning initiative based on cutting edge 
science and modeling. It is driven by priorities, recognizes 
finite funding, and enjoys quite remarkable bipartisan support. 
This Plan is iterative, which means it is updated every 5 years 
to incorporate the latest science and reflect progress. Each 
update must be approved by the State legislature, and each of 
its three iterations over 15 years have all been unanimously 
approved.
    This plan is also informed by an exceptional and growing 
public engagement process, giving communities a voice in their 
own future. We strongly recommend that other States facing 
significant flooding challenges examine the Master Plan's 
approach as a useful guide.
    As for details, gray projects like rocked shorelines or 
levees are complemented with restored wetlands, barrier 
islands, and oyster reefs, as well as non-structural 
approaches. A combination of these measures are organized to 
create a ``multiple lines of defense.'' As you can see, my 
colleague Shannon is holding here, you see the array of various 
approaches that can be married together, both structural and 
natural, to really provide multiple lines of defense. That is 
true along rivers; it is true along coastlines. It is this kind 
of thinking that we would strongly recommend to the Committee 
in thinking about the kinds of projects that it encourages and 
supports, incentives that it builds into the system going 
forward.
    This next chart is just simply a specific version, done 
specific to Louisiana, where you can actually see how it works 
in our setting. These charts are in the written testimony, and 
you can look at them in more detail that way.
    Now, the natural aspects of these are really beneficial, 
because they have so many co-benefits. Oyster reefs, which help 
reduce wave problems, also grow oysters. Storm surges that can 
be stopped by wetlands, wild wetlands maintain significant 
habitat. The maritime, swamp and mangrove forests can lower 
wind speeds from storms, while also supporting vast numbers of 
wildlife and commercial species. So it is these things together 
that we think really make the most sense, particularly as we 
have limited assets and finite resources going forward.
    One final element I want to tell you about that Senator 
Cassidy mentioned is the Mid-Barataria Sediment Diversion. It 
is a unique and innovative approach. This was originally 
authorized--I will make this point--in WRDA 2007 under a 
different name. It will take up to 75,000 cubic feet of fresh 
water and sediment from the Mississippi River, and at strategic 
times in the river's cycle, deliver it to the threatened 
wetlands on the western side of the river. In doing so, it will 
use the power of nature to build and sustain tens of thousands 
of wetland acres, including those created through separate 
projects. These wetlands will in turn provide buffering for the 
levees, inside of which are our communities and the industry 
that we depend upon. So you get the mix of natural 
infrastructure, protecting built infrastructure, protecting our 
communities and coasts. It is that combination that we think 
makes the most sense.
    It is a wonderful approach for us, but I have to add here 
that these kinds of projects are not without challenges. In 
this case, because of the project's essential nature for our 
work, the State has decided to fund it entirely on its through 
resources that came through the Deepwater Horizon penalties. 
Those of course are subject to Federal agency permitting, as 
they should be. I want to underscore the importance from our 
perspective of environmental review, and frankly, even our 
opposition to some of the forms of streamlining that we have 
seen.
    However, the Federal permitting timeline of nearly 5 years 
for this urgent, already long studied project is unacceptable, 
given the urgency that we face. In this case, some delays stem 
from several factors, including the challenges some agencies 
confront in accounting for what happens if no action is taken 
at all.
    Given the urgency of the crisis in Louisiana and the 
challenges associated with it, it may be that a targeted 
legislative solution is required, which if done carefully and 
without damage to the underlying statute, we support. Here and 
elsewhere, we are encouraging permitting agencies, including 
the Corps and NOAA, to work cooperatively and expeditiously to 
find ways to consolidate the permitting timelines.
    In summary, Louisiana is deploying multiple lines of 
defense and pursuing innovation to address a coast in crisis. 
But to be successful, it needs a reliable, effective Federal 
partner that can provide timely and appropriate resources, and 
stay focused on solutions. As the Committee moves forward with 
this authorization, we encourage you to think about that 
formula for the rest of the country as well.
    I went a little long. Thank you for your patience.
    [The prepared statement of Mr. Cochran follows:]
   
   
   
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Senator Barrasso. Thank you very much for your testimony.
    We appreciate all of you being here. We are now going to 
move on to a series of questions from members.
    I will start with you, Ms. Ufner. Many stakeholders who 
work with the Corps of Engineers have commented and maybe 
complained a little bit about the process that it follows to 
get from identifying a water resources problem to implementing 
a solution, and that there can be long and costly delays. For 
example, in the arid west, there are many water supply 
challenges that have not yet been solved, such as removing 
sediment from reservoirs, to providing more water supply 
capacity and effectively managing multiple water supply needs, 
such as flood risk management, drinking water, irrigation, all 
from a single reservoir.
    So as a result, the water supply is becoming scarce and 
more expensive. Could you please share any thoughts you might 
have as to how to improve the Corps' processes, so that the 
water resource projects are operated more efficiently?
    Ms. Ufner. Thank you, Senator. We actually have a number of 
suggestions, but in the interest of time, I am going to limit 
it to two. First, improve the intergovernmental collaboration 
between the Corps and local governments. The Corps has a lot of 
technical assistance that is very valuable to local 
governments. But the processes and permits they have often 
prohibit or slow down projects from moving forward.
    Second, Congress may want to consider requiring the Corps 
to do a regulatory efficiency assessment of Corps processes, 
and have the Corps submit to Congress the results of this with 
potential alternatives on how they are going to address it. 
Thank you.
    Senator Barrasso. You said you were just going to share 
two. If there are some additional ones you would like to add in 
writing, we would be happy to receive those.
    Ms. Ufner. We would be happy to do so.
    Senator Barrasso. Thank you.
    Mr. Robinson, as well as Mr. Friedman, ports and inland 
waterways are very important to the lifeblood of the American 
economy and our economic activity. Every year, over a trillion 
dollars' worth of goods moves through the ports and inland 
waters, and to every basic corner of the United States and 
around the world. Can you talk a little bit more about the 
importance of ports and inland waterways and how their 
management impacts your ability to transport goods, allowing us 
to keep jobs at home and help us to more effectively compete 
globally?
    Mr. Robinson. Senator Barrasso, just speaking on behalf of 
the NKARNS, from Tulsa, Oklahoma, to Muscogee, just in that 
segment of the waterway, 53 miles, there are more than 8,000 
jobs, there has been $5 million invested. Annual payrolls to 
the counties and to the cities are $320 million annually.
    In Muscogee, which is a community of 39,000 people, most of 
the manufacturers in that community--and Muscogee is a 
manufacturing town--depend on the waterway. So they depend on 
the reliability of the waterway. They depend on the 
transportation cost savings for delivering and receiving goods 
on the waterway. It is critically important to the economy of 
rural America. We are not investing in the system like we 
should be. Therefore, we are encountering delays, and it is not 
a good situation in rural America.
    Senator Barrasso. Mr. Friedman, would you like to add?
    Mr. Friedman. Yes, thank you for the question, Senator 
Barrasso. I will address that from the perspective of the Great 
Lakes and the St. Lawrence Seaway, which is a unique waterway 
system, where we are all interconnected as ports, and we trade 
with one another, both within the system domestically. There is 
also of course the international waterway, St. Lawrence Seaway, 
where we connect to all parts of the globe.
    The partnership that we have with the Army Corps under WRDA 
to keep our harbors fully dredged is a critical lifeline for 
big cities like Cleveland, Detroit, Chicago, as well as a 
number of rural communities. It is critical for agriculture, 
for heavy manufacturing, for steel making, which takes place in 
Cleveland, based on iron ore, which comes down from Minnesota. 
That is one of the primary examples of the types of trade in 
our region.
    Then we have many cargoes that flow in and out of the 
heartland through the St. Lawrence Seaway, both exports from 
American manufacturers and imports like specialty steel that we 
rely on in the appliance manufacturing sector and other 
manufacturing sectors. So I think in total, the number for the 
entire system is something like on the order of 227,000 jobs, 
both on the U.S. and Canadian side of the Seaway and the Great 
Lakes. So making sure that we continue to get WRDA right, 
streamline the process, authorize new projects, and get to full 
use and full spend of the Harbor Maintenance Tax is a critical 
priority for us. Thank you.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I will start out with Nicole Carter.
    Let me say, excellent testimony; very helpful. A question 
for you. Given our current operating environment, with recently 
passed tax reform which reduces revenues over the next 10 years 
by about 
$2 trillion, the state of our crumbling infrastructure with a 
grade of D, and we are talking about the kind of situation we 
face here with our ports, our rivers, and so forth, it is just 
as bad with respect to roads, highways, and bridges.
    Complete with limited numbers of Chief's reports and a 
large backlog of Corps projects, what are the big issues that 
we should tackle on the next Water Resources Development Act?
    Ms. Carter. Thank you for the question. In WRDA 2014 
Congress established new ways for non-Federal entities to be 
involved in projects. This has resulted in additional projects 
being led by non-Federal entities, and trying to understand how 
well are those projects and processes working for those non-
Federal entities, as well as delivering on projects would be 
part of the process to understand how to incorporate Corps 
projects into a larger investment package.
    Basically right now that process consists of the non-
Federal entities often providing the funds up front, and 
essentially signing an agreement that upon the availability of 
appropriations, they may receive some reimbursements. GAO 
recently did a study that identified that there are about $4 
billion in projects like this in the country, and about $400 
million has been reimbursed. But we don't know the total amount 
that requires to be reimbursed.
    How well those are working, well, [indiscernible] how well 
other non-Federal entities in the future want to make those 
investments and what they can expect in the way of the Federal 
Government partnering in those investments if they do choose to 
lead rather than wait for the Corps.
    Senator Carper. Thank you very much.
    I will turn next to Mr. Friedman. Thank you very much.
    Does the Cuyahoga River still catch on fire?
    [Laughter.]
    Mr. Friedman. No, sir. We are coming up on the 50th 
anniversary of that infamous fire, Senator Carper. I am happy 
to report that the environmental health of the river has been 
restored significantly. We are proud of what we have been able 
to achieve since that dark day.
    Senator Carper. I was a student at Ohio State University 
about that time. We used to talk about fish fries up on the 
Cuyahoga River.
    [Laughter.]
    Senator Carper. The wrong kind. Question for you, if I 
could. By 2020 the total volume of cargo shipped by water is 
expected to more than double by what it was just 17 years ago 
in 2001. As ships continue to get bigger, we see more 
congestion at the docks, longer ships required, deeper 
navigation channels, as we know, which only a few U.S. ports 
currently have.
    How do we ensure that ports are able to effectively 
distribute and receive goods as ships continue to grow in size? 
Is it a policy, funding? Is it policy issues, or funding 
issues, or both? If it is a funding issue, how do we go about 
doing more with less?
    Mr. Friedman. Thank you for the question, Senator. I will 
try to address that. Yes, it is certainly a funding issue and a 
policy issue, both. As you heard me say earlier, AAPA is asking 
for $66 billion over the next 10 years to address many of those 
issues that you just spoke to, deepening waterside projects, 
such as deepening in order to keep up with the ships that are, 
of course, enormous today, as well as some landside projects to 
ensure that we have the intermodal connections, so once that 
cargo comes off that ship at a port, or moves onto that ship, 
it can get to that port efficiently from an inland point.
    So we absolutely need a Federal partnership. I would also 
point out that there is already what I would call a robust 
public-private partnership in place, because our port 
authorities work very closely with private sector port terminal 
operators and ship owners who invest heavily in our ports in 
partnership with our ports and the Federal Government. The 
Federal dollars will leverage additional private investment and 
go toward those sorts of infrastructure projects, which there 
is no direct pay back on.
    So we look forward through this next round of WRDA, and in 
this infrastructure discussion we will be having this year to 
ensuring that we can put a plan in place to fund those 
important needs at our ports.
    Senator Carper. In my opening statement, I mentioned that 
the Corps faces a rather sizable math problem, as it tries to 
serve roughly a $200 billion requirement, and more with an 
annual budget that hovers around $4.6 billion. Think about 
that. Think about that, a $200 billion requirement to meet and 
an annual budget that hovers around $4.6 billion. We are just, 
we know it costs a lot of money. We know how economically 
important it is in our country. We are just not spending the 
money; we are not investing the money. We can do streamlining 
from now until the cows come home. We have done a lot of smart 
streamlining. I think we are prepared to do some more.
    There is good news, and good opportunity to figure out how 
to leverage Federal resources, State resources to bring in 
private sector resources. We are doing that right now with an 
extension of the Port of Wilmington.
    But at the end of the day, one of the things we need is for 
the Federal Government to do its share, to do its part. That is 
not something that requires a response from any of you. I think 
that is the 800 pound gorilla in the room. Thank you.
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. I think Senator Carper brought out 
something that is significant and that is very unique, and that 
is that in this area, where we are trying to bring in private 
sector funding, we actually had to pass a bill and a provision 
into law to allow that to take place. I can't think of any 
place else in government where you have to ask permission to 
let the private sector pay for something. So that was something 
that was good.
    Mr. Robinson, I again appreciate your being here so we can 
make it very visible to people that we have problems on this 
inland waterway. I can remember back when I first came to 
Congress, I would go up through some of the eastern States and 
see the problems they have had with their old ports, thinking, 
well, we are pretty fortunate in Oklahoma; we don't have those 
problems. Well, now we do have those problems. Enough years 
have gone by, we have outlived the lives of some of our ports. 
So we have to address that.
    We had a Subcommittee that I chaired not long ago on 
transportation and infrastructure. Someone suggested that the 
cost share of the Inland Waterway Trust Fund should be changed 
in some way. One suggestion was from, to 15 percent from the 
trust fund and 85 percent from the general fund. Are you 
familiar with that suggestion?
    Mr. Robinson. Yes, Senator Inhofe, I am, and I think there 
probably needs to be an adjustment. The problem, as Senator 
Carper acknowledged, is not doing more with less. We have been 
trying to do that forever. It is not working. We need to do 
more with more and do it efficiently and in a businesslike 
manner.
    Senator Inhofe. Those of us who have been down there and 
observed the problems that we have in some of these relatively 
new ports through where we carry our goods and services, our 
nation's system directly touches 38 States, as has been brought 
out. It is not just the coast. Three of our ports go through 
Senator Boozman's State, then two more ports are in Oklahoma.
    Now, in the FAST Act, for the first time, and I have been 
through all seven of them since 1987, that we were able to have 
a freight provision. That freight provision left a lot of the 
authority up to the States as to how to expend that and so 
forth.
    So I would ask the question, would allowing the States to 
use FAST Act freight funds on our waterways, if they chose to 
do it, would that be a valuable tool to address the issues and 
the needs in the States?
    Mr. Robinson. I think so, Senator Inhofe. I think we need 
more tools, and that would be one of them. The question, of 
course, would be whether States who are so focused on their 
highways' needs, roads and bridges, how much effort or how much 
expenditure they would allow from those funds for waterways.
    The other question is, what would they use those funds for? 
Would they use it to cost share new projects? If that were the 
case, I think there is a real need to cost share new projects. 
There is not enough money in the Inland Waterways Trust Fund to 
do that. Perhaps the States are going to have to pick up a 
little bit of the load there.
    Senator Inhofe. It is not going to happen unless somebody 
does something. You have to get aggressive and come in with the 
State, decide what the alternatives are and then what 
percentage perhaps might be appropriate for that. I look at 
sources, and I run out of ideas. So anyway, I think that is 
something we can do, and something that doesn't affect us as 
much here in the Federal Government as much as it does in State 
government.
    Mr. Robinson. I also think, Senator Inhofe, the Water 
Infrastructure Financing Act that the Congress authorized in 
2014 is another tool that could be used. It is leveraged, 
because the Federal Government is getting the money back, it is 
a loan. So I think that is another one of the tools at our 
disposal, like the TIGER program.
    Senator Inhofe. There is a variety. We can get together and 
decide what we want to do on a State level.
    Ms. Ufner, the counties and cities are facing a lot of 
issues when it comes to water resources, in trying to address 
these. I know other States, not just the State of Oklahoma, 
have some of these problems. In the city of Bartlesville, 
Oklahoma, the community is growing and in need of additional 
water storage. Now, we had water storage from one lake in that 
city. As a result, it increased our rates to the customers by 
over 100 percent.
    But when we tried to open up another one, and I am not sure 
you are familiar with this particular issue, but we went to the 
Corps of Engineers, and they increased--they had a rate 
increase of 3,000 percent, which obviously our cities, that 
particular city of Bartlesville, was not able to do anything. 
When I asked the GAO to investigate how the Corps comes up with 
their prices, they reported back that they couldn't, because 
the agency's recordkeeping was so bad and varied they could not 
actually study how the agency arrives at their numbers. That is 
shocking.
    Ms. Ufner. I almost feel like that is a trick question, 
Senator.
    [Laughter.]
    Senator Inhofe. No, it is not a trick question; it is a 
serious question, and I would like you to talk about it. 
Because we have new people coming in, and we have had a hearing 
already with the Civil Division of the Corps of Engineers. They 
recognize that changes have to be made. But not if we all sit 
around and keep quiet and don't talk about it.
    Ms. Ufner. I think that you hit a strong point on the head. 
There is a lot of information that is not available out there. 
It is something that we need to figure out and work together to 
do it.
    Senator Inhofe. Yes, well, my time is expired, but that is 
something we need to address.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman. I appreciate the 
panel being here. Particular welcome to Mr. Friedman.
    Rhode Island has two ports that we are investing in and 
proud of, ProvPort and Quonset. We are the home of Moran 
Shipping Agencies, which is one of the world's best ship 
servicing agencies. So we are keenly interested in ports.
    I am interested in your take on what sea level rise 
infrastructure impacts our ports are looking at.
    Mr. Friedman. I think our ports are keenly interested and 
concerned about sea level rise and what they can do in 
partnership with local, State, and Federal governments to 
enhance resiliency, as we heard Mr. Cochran speaking to 
earlier. I think we would look toward this WRDA bill to 
increase our ability to work in innovative ways with the Army 
Corps of Engineers.
    I think you usually find that a lot of the new and 
interesting ideas tend to bubble up from those of us who are on 
the ground at our local ports and communities. We need the 
ability to sit down with our Army Corps districts and work 
together on those solutions. We are engaged in those 
discussions with the Buffalo District of the Corps, which 
oversees Cleveland. Believe it or not, we have had some coastal 
resiliency issues in Cleveland. SuperStorm Sandy did a 
tremendous amount of damage to our breakwater and other 
structures in our port. We are looking at dredge material, for 
example, to fortify our port.
    Senator Whitehouse. Is it fair to say that the concern of 
America's ports about sea level rise goes beyond the actual 
seashore itself, that you can raise piers and sea walls and so 
forth. But if the sea is infiltrating through, for instance, 
water systems and bubbling up behind, if it is flooding access 
roads that are necessary to get goods in and out of the ports, 
those are matters that are of equal concern to the actual 
shoreline itself; is that correct?
    Mr. Freidman. No question, Senator. I think our ports are 
literally on the front lines of this issue, and they are very 
concerned about the upland impacts of sea level rise as well as 
being inundated right on the docks. There is no question that 
all our ports are focused on that question. I think they are 
all working very hard to figure out how do we mitigate going 
forward.
    Senator Whitehouse. Ms. Ufner, you are here on behalf of 
all counties, but if I could direct your attention to coastal 
counties, could you tell us what you are hearing from coastal 
counties about the infrastructure hazards and risks and 
problems and challenges that they are seeing related to sea 
level rise and storm surges and so forth?
    Ms. Ufner. It is much broader even than sea level rise and 
storm surges. We are definitely getting the flooding in the 
coastal counties. I also work very closely with our Gulf States 
Counties and Parishes Caucus, and especially with the 
hurricanes that have come through this past fall, they are 
increasingly focusing on how to address those issues. Because 
the weather events have been getting more severe, and the 
population growth within those communities makes it even more 
essential that the communities can address these issues at the 
local level.
    Senator Whitehouse. So my view on this is that this is a 
problem that coastal communities face, counties and 
municipalities. That very often those counties and those 
municipalities don't have a lot of resources to do the 
planning.
    I see your head nodding, for the record, yes. Good.
    It is also my view that a lot of the FEMA mapping has 
proven itself to be wildly inaccurate. So you have counties 
that are counting on the Federal Government for planning as to 
what sea level rise and flood risk looks like, and they are 
being given bad information, which puts it again back on the 
community to try to reach its own better planning process. But 
without the resources it is really hard to ask a local 
community to take on a task like that. Is that a fair 
description of the problem as you see it as well?
    Ms. Ufner. It is. Counties derive a large part of their 
income from property taxes, and States set the limit of how we 
can even raise property taxes. So it sets an ugly cycle of how 
do we fund for something, how do we strengthen our local 
communities. And that is why the Federal-State partnership is 
so valuable to us.
    Senator Whitehouse. Yes.
    Well, let me just make one point to my colleagues. I think 
that as we are beginning to address these WRDA issues, one of 
the areas in which we can become more efficient and more 
helpful to the Army Corps would be to try to find a good, 
honorable, and transparent way for Congress and this Committee 
to be able to assert its own priorities in the process.
    It concerns me that we shovel projects in one side of the 
WRDA bill and we shovel money in the other side of the WRDA 
bill, and how the Army Corps of Engineers connect that money to 
those projects is a giant black hole. I think we need to fix 
that. I know we have been through a problem of earmarks that 
received a lot of justified criticism. Our response was to 
abandon this responsibility entirely. I think that was an 
overreaction, and that we can and should in this Committee try 
to frame out an honorable, transparent, proper way for these 
priorities to be met under our supervision, rather than just 
throw it off to the Army Corps bureaucracy. I hope that 
statement was not unwelcome, and I appreciate that time.
    Senator Barrasso. It was very welcome. Thank you very much, 
Senator Whitehouse.
    Senator Wicker.
    Senator Wicker. Thank you.
    Mr. Friedman, let's talk about the Harbor Maintenance 
Trust. I notice in your testimony you advocate full use of HMT 
revenues over a 10 year period. What we have been doing, as has 
been pointed out, is we have been taking in more HMT revenue 
and sort of setting it aside, making the deficit look better by 
not spending it for its intended purpose.
    If we take your recommendation and restore--and restore 
over a 10 year period the full use of these revenues, will that 
get us where we need to be in terms of meeting our funding 
needs?
    Mr. Friedman. Thank you, Senator Wicker. It gets us part of 
the way there, but not all of the way there. If you look at the 
numbers that AAPA has submitted in the infographic, and they 
can provide more detail, we are calling for full spend every 
year of the revenues that are brought into the trust fund, and 
spending the roughly 
$9 billion surplus that has been built up, as you just 
mentioned. Then on top of that, we would need additional moneys 
through an infrastructure bill to reach the $66 billion, which 
we identify as the full need.
    So we would certainly be fully maintaining our harbors at 
that point, if we fully spend the Harbor Maintenance Trust 
Fund, catching up with the backlog if we use the surplus. And 
then for some additional waterside improvements, such as 
deepening, which was mentioned earlier, some of our largest 
harbors for the larger ships, some of the big container ports, 
then some critical landside multimodal connections, using 
infrastructure dollars, we think that gets us to where we need 
to be as a nation.
    Senator Wicker. OK, so it is your hope that the President's 
infrastructure plan, which should be outlined to us and to the 
public within a couple of weeks, or at least within a month, 
that that 
$1 trillion infrastructure plan will be the third step in 
getting us where we need to be to meet our needs?
    Mr. Friedman. We hope so, Senator, yes.
    Senator Wicker. OK, and I hope so, too.
    Thank you for this chart and these graphics. Senator Carper 
showed a bigger copy of this. They are illustrative examples of 
port related investment needs. I notice you have three rail 
projects, one being the Mississippi Rail Relocation Marine 
Terminal Project at Pascagoula, Mississippi. That is the only 
city in the United States that rhymes with hallelujah; you 
might tuck that away as a fact to be learned today.
    [Laughter.]
    Senator Wicker. Also, Cross Harbor Rail Tunnel in New 
Jersey and Port Arthur Rail Project. How are we doing in rail 
access to ports? And why aren't we where we need to be? What 
have been some of the challenges in getting that rail to the 
ports?
    Mr. Friedman. I think we have made good progress in the 
last 20 or 30 years or so in improving rail access to ports. 
Intermodality, or the whole concept of putting a container onto 
a train, is not that old a concept. So many of our ports had to 
be retrofitted with the kinds of rail connections that would be 
functional for them.
    The granddaddy of all those would be the Alameda Corridor 
project in southern California, which consolidated all the rail 
lines in a cut, so as to eliminate grade crossings. We have 
seen those sorts of projects on somewhat smaller scale at many 
of our ports. That has been, I think, a good public-private 
partnership between the railroad industry and between ports 
themselves, between the Federal Government.
    But we do need more. We are seeing increased volumes to and 
from our ports. I think it is particularly important for 
exports. We tend to think about containers coming in through 
our ports. But where I am in Cleveland, we think a lot about 
exports. We need those strong rail connections from the 
hinterland into the ports in order to move exports, which quite 
often are heavy and bulky products that we make here in the 
U.S.
    That is why, in that $66 billion, we have included those 
critical rail connections. In some cases it is tunnel 
clearances; in some cases, it is rail bridges; in some cases it 
is grade crossings, it is more track in order to manage those 
trains as they move in and out of the ports. Thank you.
    Senator Wicker. Quickly, Mr. Cochran. This loss of land in 
Louisiana is something I am more than familiar with, as a next 
door neighbor. Truth of the matter is, I am not advocating 
doing away with flood control, but it is actually flood control 
over the centuries and decades that has caused the absence of 
sediment and the loss of land, is that correct?
    Mr. Cochran. One of the significant factors, yes, sir.
    Senator Wicker. Just the point I would make is, no one 
would advocate the solution to the problem is to go back to the 
wild days that we used to have that caused the sediment. I 
appreciate you and your testimony by thinking of different 
ways, innovative ways to address them and that we can't change 
back to the way it used to be. I appreciate that.
    Also let me just say, I understand you that we are all for 
streamlining permitting. You have some doubts about some of the 
suggestions at the other end of the table. We are going to have 
to come together across the aisle on ways that we can 
streamline the permitting processes. I am glad to see a 
consensus among all five of our witnesses, I believe, that we 
need to address that. I hope we can work on the nuances that 
can be a happy solution and a win-win for all parties.
    Mr. Cochran. I would offer, and I appreciate that. The key 
there is what you identified, which is sitting down together, 
sitting down together on the things that we have been lucky 
enough, and maybe threatened enough in Louisiana to do, is to 
recognize that hurricanes and other things are completely non-
partisan. We need to be, too, as we figure this out. So looking 
at how to make the system work better, how to make underlying 
protections do what they are intended to do, but to do so in 
the most efficient way, that is a great conversation to have.
    Senator Wicker. Thank you.
    Senator Barrasso. Thank you, Senator Wicker.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, Mr. Ranking 
Member. I am very grateful for your holding this hearing. It is 
important work that our Committee does, to draft the new Water 
Resources Development Act this year.
    My State of New York has a wide range of diverse water 
infrastructure needs and challenges. We are a coastal State 
threatened by the impacts of climate change, coastal storms and 
sea level rise. We are also a Great Lakes State, constantly 
challenged by aquatic invasive species like Asian carp, that 
have the potential to destroy our fisheries if they are not 
stopped from gaining a foothold in the Great Lakes Basin.
    We have the largest and busiest port on the east coast, 
which is essential to international commerce. And we have a 
number of small ports and harbors across our State that are 
important to the local economies and need to be properly 
maintained.
    We cannot address all of these challenges without a strong 
investment in the Army Corps. But funding is only a part of it. 
We need to ensure that we are investing our Federal dollars so 
that we are more resilient in the face of these challenges.
    I was very disappointed that the Trump administration chose 
to rescind the Flood Risk Management Standard implemented by 
the Obama administration, which required federally funded 
projects to incorporate best available and actionable science 
on climate change and sea level rise and build above the base 
floor elevation levels. If we are spending, as we are in the 
northeast, billions of dollars to build the infrastructure to 
protect our communities, it defies logic that we would leave 
taxpayers exposed to the types of catastrophic losses we saw 
after SuperStorm Sandy, and more recently hurricanes Harvey, 
Irma, and Maria, but not building to withstand the current and 
future flood risk.
    So to Ms. Ufner, what are the consequences to counties and 
local governments and their taxpayers if we fail to properly 
assess risks, both current and future, when planning to build 
in flood plains?
    Ms. Ufner. Thank you, Senator, for your question. 
Ultimately, counties are responsible for the public health and 
safety of our communities. Probably, if you look at what has 
happened in Santa Barbara County, California, within the last 
day, with the flooding that is due to the wildfires, there are 
only limited things you can do after a wildfire to address 
risk. But it demonstrates that when floods happen, people die, 
homes disappear, roads are gone, memories are gone. This is 
something that local governments want to prevent, and they want 
to be there to help with their residents.
    Senator Gillibrand. Are we doing enough to ensure that we 
are adequately protecting ourselves and our assets from future 
storms and floods? What could we be doing better?
    Ms. Ufner. It is a combination approach. There is a 
responsibility on the local governments. A lot of our local 
governments, though, they have the limited income and technical 
assistance to follow through with these projects. And that is 
where they really look to the Army Corps of Engineers and other 
Federal agencies to bring the technical assistance, the data, 
the modeling, the communities can use. We have been working 
with our counties on best practices that they can use in their 
own communities to build their resilience at the local level.
    Senator Gillibrand. What else could we be doing?
    Ms. Ufner. We just keep on going in the direction we are 
going. The way NACo views it is that these are steps on the 
ladder that we can help the communities that are out there, 
really being aggressive. There are trend setters. They are the 
ones we learn from on what may work in other communities.
    Senator Gillibrand. Thank you.
    To Mr. Cochran, what needs to change in terms of Army Corps 
policies and procedures to allow for greater use of nature 
based solutions to mitigate flood risks along our coastlines?
    Mr. Cochran. One of the things that I want to point out is 
that this multiple lines of defense system chart that we used 
earlier to illustrate the integration of hardened 
infrastructure and natural infrastructure is actually based on 
a chart that the Corps put together following in its post-Sandy 
efforts, as it did a comprehensive coastal study in the 
northeast. So I take that as both a positive sign that--too 
often what we do is learn about these things after the fact. 
This is a post-Sandy study, not a pre-Sandy study.
    So I think one of the things we really need to encourage 
within the Corps is to take the learnings that have occurred in 
these post-Sandy situations and really make sure that they 
penetrate across the Corps, across the various divisions, not 
just single in on one place, so all the areas, coastal and 
inland, can get the clear benefit of this kind of thinking, 
this kind of an approach. Because from that comes actual 
information and data, so that you can actually do the kinds of 
comparisons that let you select the things that will work best, 
not just take one old system because that is the way we have 
always done it, but actually integrate these things so that 
they become not only protected but sustainable in the process.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Gillibrand.
    Senator Ernst.
    Senator Ernst. Yes, thank you, Mr. Chair.
    A number of my coastal colleagues have mentioned the 
detriment from hurricanes and so forth. I would offer them the 
opportunity to come inland a little bit. Iowa has about 1,000 
miles of coastal setback in either direction. But regardless of 
those large scale effects that come from hurricanes, we do have 
flooding issues in Iowa that occur on a much more regular basis 
than those 100 year floods or 500 year floods that are recorded 
out there.
    Senator Whitehouse mentioned that black hole that exists 
within the Army Corps of Engineers. We get the projects in on 
one side, and as he said, the funding in from the other side. I 
tend to agree with the Senator, in that there is a black hole 
and we need greater transparency there.
    Part of that black hole, I feel, is the benefit to cost 
ratio. Mr. Cochran, in your testimony, you encourage Congress 
to direct the Corps to modernize that BCR, the benefit to cost 
ratio analyses, because you believe the estimated costs are 
often inaccurate. A priority of mine has also been to modernize 
the BCR metrics, so that more communities, particularly our 
rural ones, have an opportunity to get their projects funded.
    We have a flood mitigation project in Cedar Rapids, Iowa, 
that was authorized by WRDA in 2014. It was mentioned for 
prioritization in WRDA in 2016, but has not received any 
funding due to the low BCR that results from Iowa's relatively 
low property values. I know that is true in other areas as 
well, and maybe Mr. Cochran in Louisiana, too, because your 
property values are low also.
    Do you have any thoughts on how the BCR metrics could be 
modified so that projects like this flood mitigation project in 
Cedar Rapids have a better chance of receiving funding?
    Mr. Cochran. One of the recommendations that we have is 
really a focus on making sure that you can in fact take account 
for the range of benefits that can come from projects when you 
are doing protection. A lot of that has to do often with the 
benefits of wetlands, the benefits of setbacks, things like 
that that you are used to in your riverine situation that 
really don't get accounted for any benefits when you get into 
the cost-benefit. It is just, well, there is some land there, 
but they don't actually look at the benefits associated with 
it, this kind of benefits.
    So a true accounting for the benefits from natural 
infrastructure, for the benefits that are there, really needs 
to be done. It will end up benefiting these discussions in a 
lot of the ways that you are talking about because it actually 
gives a true picture, not just one that is just slanted toward 
and old way of doing things.
    Part of the challenge that I think a lot of people have had 
with these analyses, too, is a real lack of transparency. It is 
difficult understanding exactly where the numbers came from or 
how they got there, and no real requirement that they be 
justified in a way that allows people to actually engage in 
that conversation. So we think that that transparency is a 
fundamental piece of this. Data transparency, real accounting 
for real benefits, those things together really can make a 
difference.
    Senator Ernst. That is too true. Again, going back to that 
black hole that Senator Whitehouse was referencing. So thank 
you. I think that is important, and I hope we are taking a look 
at the BCR as we move forward.
    And of course, Ms. Carter, the Army Corps component of the 
WIFIA program that was established by WRDA in 2014 has yet to 
get off the ground. That is the Army Corps portion. The EPA has 
already implemented their portion.
    What are some of the challenges that the Corps is facing in 
implementing this program? And at this current pace, how long 
will it take for the Corps to catch up to where EPA is?
    Ms. Carter. Thank you for the question. Indeed, the WIFIA 
program for the Corps has not been funded. And part of what has 
been going on is that the Corps has no real history with a loan 
or loan guaranty program, so developing the guidelines. And 
then understanding how will those projects be scored in terms 
of the risks to the Government have been some of the primary 
challenges.
    Basically, as those issues get worked through, with either 
congressional or Administration involved in those discussions 
of how to score the risk, as those progress, then funding could 
be provided and the Corps could start providing these loans and 
loan guarantees, which could assist with projects like flood 
levees where communities could potentially proceed on their own 
to be able to perform those projects.
    So those are the main ones, the ability to understand the 
scoring of it.
    Senator Ernst. Would it be helpful, since EPA already has 
an established process, would it be helpful then if the Corps 
could determine those projects and then fund those through 
WIFIA and EPA?
    Ms. Carter. I have not looked at that as an option. But I 
believe there is some legislation that is out there to that 
effect. We have a CRS expert that covers the WIFIA program, and 
any questions for the record that you would like to provide for 
us, we are happy to answer.
    Senator Ernst. I appreciate it; thank you very much.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    I don't have a question for you, Ms. Carter, but we do 
appreciate CRS, we appreciate all of your knowledge and just 
CRS in general. You all do a great job and probably are not 
thanked enough by us as we try and get things together. Give 
yourself a big pat on the back.
    Ms. Carter. Those types of comments are what keep us going. 
Thank you.
    Senator Boozman. We do appreciate you.
    Mr. Robinson, to capitalize on America's changing economy, 
it is clear that necessary infrastructure improvements must be 
made to our inland waterways and ports. Arkansas and Oklahoma 
have been working for years to deepen the McClellan-Kerr 
Arkansas River Navigation System so barges and boats can carry 
larger loads. I think about 40 percent greater loads. So it is 
very, very significant.
    Senator Inhofe and I both understand, and certainly we 
appreciate his leadership, but also the national significance 
of a 12 foot channel versus what we have now. We are going to 
work really hard in WRDA 2018 to try and get that accomplished.
    Can you explain why the 12 foot channel would be a benefit? 
Not just for Arkansas and Oklahoma but for the country as a 
whole.
    Mr. Robinson. As you said, Senator Boozman--well, let me 
give you an example. You know Scott McGeorge with Pine Bluff 
Sand and Gravel, operating a rock quarry there in the Pine 
Bluff area. The closest rock quarry to New Orleans in the 
country. So Scott McGeorge and Pine Bluff Sand and Gravel were 
not able to compete when New Orleans needed rock desperately. 
So as a nation, we paid more for that rock than we otherwise 
would have, because we weren't willing to deepen the channel. 
Or we started the channel, but we didn't complete it, we didn't 
go forward with it.
    Senator Boozman. Along that line, I have great concern in 
the sense that as recently as 2016 Bob Portis expressed concern 
that the critical backlog on the NKARNS was of that nature. 
That number is now ballooned to $143 million in less than 2 
years. If we can continue to kick the can down the road and not 
address the critical backlog, talk about that. Talk about the 
effect of it, if we actually had to shut the system down, 
again, not only for Arkansas and Oklahoma, but for the rest of 
the country.
    Also, according to the U.S. Army Corps of Engineers, 58 
percent of locks and dams are past their 50 year life 
expectancy. Talk about, if we could do some more things, the 
positive effect.
    Mr. Robinson. The locks and dams on the NKARNS are 47 years 
old. I realize that the locks and dams on the rest of the 
system and in the nation are older than that. One of the 
reasons that the backlog of critical maintenance is growing at 
such an alarming rate is because we are nearing the end of the 
50 year life that most projects like that have from an 
engineering standpoint. So we are discovering new things every 
time we de-water a lock, and we do that quite often in order to 
make sure that we are keeping up with the maintenance that 
needs to be done.
    Unfortunately, the funds aren't available to do the 
maintenance, even when we know they need to be done. If NKARNS 
were shut down as a result of failure of the system in one way 
or another, we have calculated that the cost in Oklahoma would 
be $2 million a day. That is a significant cost to shippers, to 
ports and terminal operators, and to the nation. It is just not 
a good way to do business.
    These projects were justified on expectations that the 
benefits would exceed the cost. They have done that. There is 
significant earnings to the Federal Government to go into the 
Treasury. It is not a matter of not enough benefits and 
revenues. It is a matter of using those revenues for other 
purposes.
    Senator Boozman. Mr. Friedman, a top priority for the 
Chairman and Ranking Member, for the entire Committee, is 
passing a WRDA bill. We went through a period from 2007 to 2014 
where we had a gap. In 2014, 2016, we have gotten back on 
track. Can you talk about what it means to have certainty with 
having a WRDA bill every 2 years to address these problems?
    Mr. Friedman. Sure, thank you, Senator. Yes, it is 
critically important for the port industry, American industry 
to have a WRDA reauthorized every 2 years, or on a regular 
cycle. Because adjustments need to be made to the new 
construction start authorizations as projects are designed and 
then being built that, as we know, the Army Corps has been 
plagued with projects that string out for many, many years, 
adding costs.
    It hurts the competitiveness of the nation if we can't 
complete these harbor improvement projects, complete these 
deepenings. A gap of 7 years, as you mentioned, is very, very 
harmful.
    It also gives us an opportunity to address the issue that 
was brought up in terms of transparency and opening up the 
decisionmaking process at the Corps, the so called black box 
which we think would be good for all stakeholders to be able to 
have input, to modernize the benefit cost ratio, to make sure 
we are funding the best projects for the nation. So AAPA is 
strongly in favor of getting back to the regular order on WRDA.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    A question again for you, Ms. Ufner, dealing with 
stakeholder involvement. The ground rule is that stakeholder 
and project sponsor, in collaboration with the Army Corps of 
Engineers, is essential to solving our water resource 
challenges, which are many. And this collaboration helps to 
limit the cost of missed opportunities, promotes better 
planning, provides better transparency, results in more 
fiscally and environmentally sound projects.
    A question for you, if I could. How can the Army Corps 
adapt its efforts to promote integrated planning and 
management? Please.
    Ms. Ufner. You are talking integrated planning from the 
concept of Environmental Protection Agency but using it also 
within the Army Corps of Engineers?
    Senator Carper. Yes.
    Ms. Ufner. And basically how to--it is a big issue for us 
with water issues, whether in the Corps or the Army Corps to 
address Clean Water Act issues in a holistic way. That 
essentially includes potentially--I don't want to say bundling 
projects, but it is a way for us to look at what is the most 
important thing. We are still meeting our Clean Water Act goals 
in the Corps, or EPA. But we can do it in a much more 
affordable way. That is something that NACo has been supporting 
within the realm of the Clean Water Act.
    Senator Carper. Thanks.
    I want to go back to something I said earlier in my opening 
statement. I am going to ask you to join me in an airplane, and 
let's go up to about 30,000 feet. I would like for you to react 
to what I am going to repeat, what I said earlier. As the 2017 
hurricane season illustrated, our nation--I spent some time in 
Puerto Rico and spent some time in the Virgin Islands, spent 
some time in Houston and saw the kind of devastation that we 
are going to pay for for a long time, long, long time.
    But as the recently departed hurricane season illustrated, 
our nation needs to be a resilient one that is ready for the 
next storm, flood, or drought event, because it is coming. In 
fact, just this week, NOAA, as was said earlier, NOAA estimated 
that the total cost for extreme weather and climate events 
exceeded $300 billion, which is a new annual record for the 
U.S. So it is clearly not a matter of if our next extreme 
weather event is coming, but when.
    Together, the Corps' navigation and flood risk management 
activities accounted for more than 70 percent of the agency's 
annual civil works appropriation. But the Corps has or shares 
jurisdiction, as we know, over any number of critical civil 
works program. They include environmental stewardship; they 
include hydropower; they include recreation; they include 
emergency management and water supply.
    Unfortunately, in the mid-1980s Federal funding for new 
project construction and major rehab began to decline steadily. 
With this trend, the Corps in its actions has shifted to 
operations, to maintenance, to rehabilitation of existing 
infrastructure, and a backlog of deferred maintenance has 
continued to grow ever since. As a result, much of the Corps 
infrastructure is now exceeding its useful life plan.
    If you were sitting on this side of the dais, as members of 
this Committee, what would you be doing about it?
    We will start with you, Steve, please.
    Mr. Cochran. I think that situation you described is 
incredibly debilitating to the people who work at the Corps of 
Engineers. They are, many of them, quite skilled, quite 
talented, and quite able. And yet they--the vision of what it 
could be and what they need to be is completely overwhelmed by 
a backlog of things that they are not getting done.
    So it does seem to me that it is essential to find a way to 
overcome the backlog. Not by doing all the projects; frankly, 
that is not going to work. But by creating a new vision that 
actually does, we talk a lot in Louisiana about getting ahead 
of the next storm, the same way you talked about in your 
opening statement. Well, that is critical, because otherwise 
you are always playing catch up. That is what the Corps is 
doing now. That is all they can do, is play catch up.
    I don't actually mean this, but we should either give them 
a real job to do, or we should just get rid of them. Because 
the way it is right now--Mr. Robinson said earlier--everybody 
has learned how to do more with less. That is just business as 
usual. If you do that long enough, you give up on what you 
really need to do. I think that is what the Corps has done.
    Senator Carper. Thank you for that.
    Ms. Carter, please.
    Ms. Carter. CRS has no opinions or reactions. But one of 
the topics that may be of concern in the future is the dam and 
levee safety issues. The Corps should be coming out in the next 
few months with reports related to some of the infrastructure 
investment needs in that area, including related to I-walls, 
which are one of the pieces of infrastructure that failed in 
New Orleans and contributed to the costs to the Federal 
Government for emergency response and recovery.
    Figuring out how aging infrastructure like that fits into 
the infrastructure package in the long run will help or hinder 
the Government's ability to manage its risk.
    Senator Carper. OK.
    Well, I am going to ask you to react to what I said earlier 
and just repeat it, please.
    Mr. Friedman. Absolutely, Senator. With my AAPA hat on, I 
would repeat what I have said, which is that our ports want to 
see the continued movement toward full use and spend of the 
Harbor Maintenance Trust Fund. That would make a tremendous 
difference for us. We are grateful for the progress that 
Congress has made and you have made in that direction recently. 
The numbers are remarkable from where we were 5 or 6 years ago. 
Then we would again submit that our waterways, our water 
infrastructure needs to be viewed very high priority in any 
upcoming infrastructure legislation that is passed out of 
Congress.
    And then speaking for myself, if I were on your side and in 
your shoes, I would think back to when the Army Corps, the days 
when the Army Corps was building some of the greatest public 
works projects known to man, the Panama Canal, our great dams, 
and other waterways and waterworks. I think we need to get back 
to that spirit of, we can do this. We have to fund it, but we 
can do it, we can address these issues. I could share the view 
that without enough funding, there is not much the Corps can 
do. They are fighting this backlog perpetually. I think we have 
to start thinking on a bigger scale to address these problems 
and make that a national priority.
    Senator Carper. Thank you.
    Julie.
    Ms. Ufner. Thank you, Senator. Actually two thoughts on 
that, well, several thoughts. There is such a backlog within 
the Corps, and the need within the communities are so huge. 
There are communities out there that would love to partner with 
the Corps on projects, but there is no funding. They don't meet 
the cost-benefit analysis. And the technical assistance that 
the Corps offers is so valuable.
    Having said that, there is a lot of challenges within the 
Corps, with the processes, the bureaucracy, complex 
requirements that make it very difficult, even if counties do 
want to partner with them, that they make go to other Federal 
agencies first, because it may take 10 years through the Corps 
as opposed to 7 years somewhere else.
    Senator Carper. Good, thanks.
    Mr. Robinson. I hate to beat a dead horse, but the Civil 
Works program in the country for many, many, many years has 
delivered significant benefits to the country. And revenues to 
the Treasury, revenues far in excess of the cost of the 
program. It is time to reinvest some of those earnings back 
into the system, instead of using up the principal, the 
capital, that was originally invested.
    Senator Carper. All right, thanks. That is good. Thank you 
all. This is a good hearing, and we appreciate very much all 
you have added to it.
    Senator Barrasso. Just a couple quick questions.
    Mr. Friedman, when you talked about the days of the Panama 
Canal, there is an excellent book by David McCullough, I don't 
know if you have had a chance to read it, The Path Between the 
Seas.
    Mr. Friedman. I have read it.
    Senator Barrasso. The comment about the time, the 
complexity, the bureaucracy, all of those things. The title is 
actually The Path Between the Seas: The Panama Canal, 1870-
1914. It spanned a 44 year plan and the issues. They actually 
had to find a cure for a major disease that was killing a lot 
of people down there at the time of the construction. So it was 
a remarkable achievement, and it was over 100 years ago. Thanks 
for bringing that up.
    Ms. Ufner, there were several projects and programs passed 
in the Water Infrastructure Improvements for the Nation Act, to 
reduce flooding, ice jam prevention, you mentioned mitigation 
pilot programs. In your opinion, how important is preventing 
flooding to the economic health of rural communities?
    Ms. Ufner. To reiterate what we mentioned before, it is 
immeasurable. Communities are responsible, counties in 
particular are responsible for health and public safety. We 
take many measures to ensure that our public is protected. We 
are the first on the scene of any emergencies, flooding 
disasters. When they result in deaths and/or damage to our 
economies, ultimately it impacts the national economy. So it is 
huge that we are able to address this long term, and figure out 
the steps that we need to get there in the end together.
    Senator Barrasso. One of the things I don't think I had 
mentioned yet was in terms of, because I continue to advocate 
maintaining this network of stream gauges and snow pack 
monitors throughout the Upper Missouri Basin. I don't know if 
you are familiar with these; these are gauges that are used to 
monitor snow depth, snow moisture, to help inform agencies like 
the Corps as to potential flooding, issues of drought as well.
    So in your opinion, is there more than can be done to 
better predict flood and drought than what we are doing here?
    Ms. Ufner. There is definitely more than can be done. What 
we are hearing from our counties is that there needs to be more 
available data, and that it is reliably updated. We hear this a 
lot about the LIDAR data used for NFIP, or also flood elevation 
data that is not readily available and/or updated. For 
communities to make the most efficient decisions in their 
community, they need the most up to date information.
    Senator Barrasso. Thank you. Thank all of you. Some members 
may ask----
    Senator Carper.
    Senator Carper. Thank you, Mr. Chairman. I have a question, 
but I am not going to ask it now. I just want to flag it for 
Mr. Cochran with regard to flood risk management and beach 
nourishment. I will submit a question for the record. One of 
the things that is important to a lot of us on the east coast, 
from Maine down to Florida, is the issue of cost-benefit ratio 
not just with regard to beach renourishment, but actually 
building the dune systems and so forth that protect a lot of 
our coastal towns and communities. We are going to send that to 
you. Be sure to take a good look at that.
    Thank you very, very much, all of you. You have done a 
great job.
    Senator Barrasso. In follow up, members may submitting 
written questions to each and every one of you. I ask that you 
follow up quickly for the record. The hearing record will 
remain open for 2 weeks. I want to thank all of you for being 
here, for your time and your testimony.
    The hearing is adjourned.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

  
                                 [all]
                                 
                                 
                                 
</pre></body></html>
